BECKER GALLAGHE R
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 copies and
1 unbound copy of the foregoing Brief ofAmicus Curiae
Immigration Reform Law Institute In Support of
Petitioners in 19-897, Matthew T. Albence, Acting
Director of U.S. Immigration and Customs
Enforcement, et al. v. Maria Angelica Guzman Chavez,
et al., were sent via Next Day Service to the U.S.
Supreme Court, and 3 copies were sent via Next Day
Service and e-mail to the following parties listed
below, this 21st day of August, 2020:
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
Room 5616
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBrief s@USDOJ.gov

Counsel for Petitioners
Paul W. Hughes
McDermott Will & Emery
500 North Capitol Street, NW
Washington, DC 20001-1531
(202) 7 56-8981
PHughes@mwe .com

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive

Franklin Square

· Suite l 02

1300 I Street, NW, Suite 400E

, Cincinnati, Ohio 45249

Washington, DC 20005

Christopher J Hajec
Counsel of Record
John M. Miano
Immigration Reform Law Institute
25 Massachusetts Ave., NW
Suite 335
Washington, DC 20001
(540) 205-7986
chajec@irli.org

Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 21, 2020.

~
Donna J. Wolf
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

Notary

Clu5~ di J

d(J c}-a

P~~~ /J , ~

[seal]
JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires

Feoruary 14, 2023

